U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


             BUREAU OF THE CENSUS
      Telephone Questionnaire Assistance
           Contract Needs Administration
                    and Surveillance Plan
      Final Inspection Report No. OSE-12376/August 2000




                             Office of Systems Evaluation
August 8, 2000


MEMORANDUM FOR:               Dr. Kenneth Prewitt
                              Director, Bureau of the Census


FROM:                         Johnnie E. Frazier

SUBJECT:                      Telephone Questionnaire Assistance Contract Needs
                              Administration and Surveillance Plan
                              Final Inspection Report No. OSE-12376

The decennial census is the nation’s most comprehensive and expensive statistical data gathering
program. The accuracy of the data collected is critical since the information, among other things,
is used to reapportion seats in the House of Representatives and affects the proportional funding
of many federal programs. In an effort to increase questionnaire response rates, the bureau has
attempted to simplify the response process by providing the public with assistance and multiple
ways to respond. One of these ways is through the Telephone Questionnaire Assistance (TQA)
program, which offers publicized toll-free telephone numbers that allow respondents to ask
questions and, if they choose, to complete the questionnaire over the telephone.

The TQA program involves both inbound and outbound operations. The inbound operations
enable the public to call the bureau for assistance through an integrated network of call centers
using interactive voice response technology and live operators. Outbound operations enable the
bureau to call households to resolve count inconsistencies, such as a difference between the
number of household members reported and the number of persons for whom census
information was provided on the questionnaire. Also, due to space for only six persons on the
questionnaire form, telephone interviews are being conducted to obtain additional information for
households reporting more than six.

In our review of TQA contract and program management, we found that the bureau had not
developed a contract administration and surveillance plan. Such a plan is needed to ensure that
the government (1) receives the quality of services called for under the contract and (2) pays only
for the level of services received. We believe that a plan is necessary for the remaining contract
period and will help ensure a smooth contract closeout. We also found that despite considerable
schedule delays during TQA system development and testing, inbound operations began on
March 3, 2000, as planned. However, the start of outbound calling was delayed from April 5 to
early May in order to conduct additional system testing. According to the bureau, the delay will
have no impact on the overall decennial census schedule, and the program can be completed
within budget.
U.S. Department of Commerce                                    Final Inspection Report OSE-12376
Office of Inspector General                                                          August 2000

We met with program and contracting officials regularly during our review to discuss contract
and schedule status and have been working with the bureau regarding the need for a contract
administration and surveillance plan, including what its content should be at this stage of the
program. We formally discussed our findings with bureau officials at an exit conference held on
April 11, 2000.

In its written response to our draft report, the Census Bureau agreed to implement our
recommendations but disagreed with certain aspects of our observations. In particular, the
bureau indicated that (1) we did not acknowledge the contract monitoring activities that were
performed, (2) it had not made unauthorized contract changes, and (3) the changes discussed
were not the result of changes in requirements. Our principal concern regarding contract
monitoring is the lack of a formal contract administration and surveillance plan, which is critical
to the efficient and effective management of performance-based service contracts. At the same
time, we recognize that the bureau performed a variety of informal contract monitoring activities,
and we have added some examples to this final report. We have provided a synopsis of the
bureau’s response and our comments after each observation, including comments addressing the
contract changes. We have also updated the report to reflect changes in the TQA schedule since
the time of our draft. The bureau’s complete response is in the appendix. We want to thank the
Decennial Systems and Contract Management Office staff for their assistance during this review.

BACKGROUND

The bureau issued a request for information in the spring of 1997 to obtain basic knowledge
about the call center industry’s ability and interest in participating in the TQA program. Using a
streamlined acquisition process, the bureau established a project team to determine the
appropriate method for acquiring the TQA system. Based on responses to the information
request, the bureau found that significant industry interest and capability existed and decided that
an integrated system of call centers managed by a prime contractor was the best approach.
Because of the nature of the services required, we suggested and the bureau concurred that
performance-based elements should be included in the contract. As is appropriate, requirements
were identified on the basis of what tasks needed to be done and what results were desired
(rather than how the work would be done), and performance standards and measurement
techniques were established.

The bureau issued a request for proposals on August 18, 1998, and awarded a contract to
Electronic Data Systems on December 22, 1998. The contractor is required to design, develop,
test, modify, operate, and maintain the TQA system. System development tasks are cost-plus-
fixed-fee, and operation and maintenance tasks are fixed-priced. The telephone call center
network is designed to handle an estimated 11 million incoming calls for information through 22
call centers during a 14-week period, as well as an estimated 3.12 million outgoing calls from 13
call centers during a 12-week period to resolve questionnaire response discrepancies or obtain


                                                 2
U.S. Department of Commerce                                   Final Inspection Report OSE-12376
Office of Inspector General                                                   August 2000

missing information on the number of people in a housing unit. The contractor, along with 10
partners, is using a complex system of 23 integrated call centers with interactive voice response
capability and live operators to meet the requirements of the TQA contract. The contract is two
years in duration and has a ceiling of $100 million. The bureau’s Decennial Systems and
Contract Management Office in the Decennial Census Office is responsible for TQA program and
contract management.

Inbound operations began on March 3, 2000, and at the time of our fieldwork, were scheduled to
continue through June 8. Since that time, the bureau decided to extend TQA to June 30, in
response to a number of jurisdictions that initiated promotional efforts to have people call TQA if
they did not receive a questionnaire. These promotional efforts started late in the decennial
census process, close to when the bureau originally planned to close the TQA service. Outbound
operations were scheduled to begin on April 5, 2000, but were delayed until May 8 for additional
testing. At the time of our fieldwork, outbound calling was scheduled to finish in mid-July. The
bureau is now considering extending the completion date to mid-August to increase its chances
of reaching every case that requires a bilingual agent and to maximize its ability to reach all
outstanding households. According to the bureau, subsequent operations will not be adversely
affected by the extension of the completion date.

PURPOSE AND SCOPE

The purpose of our review was to evaluate the administration of the TQA contract. We reviewed
documentation pertaining to the acquisition, particularly relating to contract and program
management. We were also concerned with the slippages in schedule caused by requirements
and site changes. Our review was conducted from October 1, 1999, through February 22, 2000.
We have remained in close contact with bureau officials since that time to follow up on the status
of TQA inbound calling operations and outbound calling preparations.

Our work was performed in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.




                                                 3
U.S. Department of Commerce                                    Final Inspection Report OSE-12376
Office of Inspector General                                                    August 2000

OBSERVATIONS

I.     A Contract Administration and Surveillance Plan
       Needs to Be Developed and Implemented

According to the Office of Federal Procurement Policy, an important requirement for
performance-based services contracts is a government plan that describes how the contractor’s
performance will be measured against the performance standards. However, because the bureau
did not prepare a contract administration and surveillance plan for the TQA contract, its ability to
efficiently measure contractor performance and manage contract changes appropriately may be
hampered. We believe that insufficient staffing of the program office and the limited experience
of program personnel with large-scale contracts led to the omission of this important
management mechanism.

Although the bureau has experience using in-house staff to provide telephone questionnaire
assistance during previous decennial censuses and the 1998 Dress Rehearsal, the 2000 Decennial
Census is the first time that this service has been contracted out. The TQA program management
office within the Decennial Systems and Contract Management Office consists of a staff of seven
government personnel and support contractors. Efforts to recruit additional experienced staff
were reportedly hampered by the inability of bureau management to offer permanent positions
and match private industry salaries due to federal hiring constraints. While a staff of only seven
is rather small for managing a program of the size and complexity of TQA under any
circumstances, it is even more problematic for this program because staff members have little
experience in managing large-scale contracts. Despite its small staff and limited large-scale
contracting experience, the program office is responsible for numerous complex tasks, such as
providing technical guidance; defining and clarifying requirements; performing oversight of
testing; monitoring contract cost, schedule, and technical performance; and negotiating contract
changes.

Before the request for proposals was issued, we recommended that the bureau use performance-
based service contracting concepts. Federal Acquisition Regulation Subpart 37.6 prescribes
policies for using a performance-based approach to service contracting, which emphasizes
objective, measurable performance requirements and quality standards in preparing statements of
work; selecting contractors, contract type, and incentives; and performing contract
administration. According to the Office of Federal Procurement Policy’s Performance Based
Concepts for Telephone Call Center Contracting, performance-based service contracting, “with
its emphasis on standards for customer service, incentives, and measurement of performance,
offers an excellent opportunity to save money while obtaining improved performance in areas
where the government directly interacts with the public.” In addition, because this method of
contracting focuses on results rather than process, it gives contractors the freedom to determine
the best way to meet the government’s objectives.


                                                 4
U.S. Department of Commerce                                   Final Inspection Report OSE-12376
Office of Inspector General                                                   August 2000

Although the TQA program office developed a performance-based statement of work and
included measurable performance standards, important aspects of performance-based service
contracting were not implemented. Most important is a contract administration and surveillance
plan. Although the contractor developed its own quality assurance plan, the bureau has neither
documented what it must do to ensure that the contractor has performed in accordance with the
performance standards nor defined the surveillance method and schedule (e.g., 100 percent
inspection, periodic inspection) that it will use. For example, the surveillance method could be
random sampling of incoming calls, and the schedule could call for sampling on a daily basis.
The TQA program office did implement a variety of processes to assist in monitoring
performance, such as on-site observation and remote monitoring of call center agents. However,
there is no formal mechanism for providing feedback to the contractor about how it is performing
as measured against the standards, and if performance is deficient, there is no mechanism for
providing immediate notification to the contractor and for monitoring corrective action. Because
a surveillance plan helps define the amount of contract administration needed and promotes
efficient use of time and resources by focusing on the major outputs of the contract, it is
particularly important for the TQA contract because of the small size of the program office.

Implementation of the performance-based methodology requires the use of contract types that
are likely to motivate contractors to optimal performance, and FAR 37.602-4 states that these
contracts should include positive and negative incentives tied to the government’s performance
measurements. These incentives should be included, to the maximum extent feasible, if the
acquisition is either critical to agency mission accomplishment or requires a relatively large
expenditure of funds. The TQA contract satisfies both of these criteria. However, the bureau
awarded a cost-plus-fixed-fee contract, a type that offers little or no incentive for cost control,
efficiency, and maximizing performance. The only incentive provided is the possibility of a
negative past performance report in future contracts, and although important, this incentive is not
explicitly tied to the contract’s performance measurements.

An important aspect of contract administration is contract change control. When the TQA
contract was awarded in December 1998, and the subsequent task order for development was
issued in January 1999, the bureau had not yet identified its detailed requirements for outbound
calling, and the statement of work contained only broad requirements for this program. In
addition, the requirements for inbound calling operations were still subject to change. As
development began and progressed, changes were made informally through discussions with the
contractor during weekly meetings and telephone calls. Consequently these changes, as defined
by the Changes Clause, FAR 52.243, were made without formal consideration of their cost and
schedule impacts (such as cost analysis and cost reasonableness determinations), and without the
authority of the contracting officer. A change control process was established in August 1999,
eight months after contract award and well into system development. Before that time, the task
order had been increased by $2.3 million.



                                                 5
U.S. Department of Commerce                                          Final Inspection Report OSE-12376
Office of Inspector General                                                          August 2000

A formal change control process establishes procedures and guidelines for initiating and
implementing changes. A thorough evaluation of prospective changes should be made before
implementing them. Once contract changes are made, they should be incorporated into project
plans, so that the program can be managed based on the changes. A change control process
should provide procedures for analyzing costs, determining how the schedule will be impacted,
and assessing whether contract performance will be affected. Also, a determination should be
made that the change is within the scope of the contract, or whether it constitutes new work.
Formal contract administration plans provide for the development and implementation of a
change control process. Also, FAR Subpart 43.102 stipulates that only contracting officers have
the authority to execute contract modifications and that other government personnel shall not
direct or encourage the contractor to perform work that should be the subject of a modification.

Without the benefit of a contract administration plan, a control process was not put in place until
well into TQA system development. Informal changes, or unauthorized commitments, are risky
for both the government and the contractor because the impact on contract cost, schedule, and
performance is usually not analyzed at the time the changes are made, potentially causing poorly
validated contract costs, negative schedule impacts, and work to be performed that is outside the
scope of the contract. The contractor incurs additional risk by performing work that has not been
documented and incorporated into the contract, and for which it may not be compensated.

                                    ------------------------------

Census Bureau Response

The bureau indicated that our draft report did not acknowledge all of the processes implemented
to monitor contractor performance. The bureau also commented that it did not recall our making
suggestions regarding the type of contract used for the TQA program, and it stated its belief that
past performance is a very powerful incentive on this contract because of the program’s high
visibility and the potential for negative public relations if performance were inadequate. The
bureau also took issue with our statement that the $2.3 million in changes were made without
formal consideration of their cost and resulted in unauthorized commitments, noting that the
contracting officer was fully informed and in agreement with the types of refinements made.
Finally, the bureau disagreed that the contract cost increases were due to changes in
requirements.

OIG Comments

We understand that the bureau performed numerous contract monitoring activities. We have
subsequently included several examples in our final report, and the bureau’s response identifies
additional activities. However, our primary concern continues to be the lack of formal
mechanisms for furnishing feedback to the contractor and for providing immediate notification of
deficient performance and monitoring corrective actions. Efficient and effective monitoring of a

                                                  6
U.S. Department of Commerce                                   Final Inspection Report OSE-12376
Office of Inspector General                                                   August 2000

contract of such magnitude as TQA requires a formal plan. As for our suggestions about contract
types, we submitted written comments on the draft request for proposals, via e-mail, on August
10, 1998. At that time, we questioned the use of an indefinite-delivery task order contract, and
suggested the use of incentives focusing on timeliness, quality, technical ingenuity, and
management. We were told in a subsequent meeting that a task order contract was used due to
budgetary constraints and that incentives were not feasible. With regard to past performance,
while the TQA contractor may be motivated to perform well because of public relations concerns,
we also believe that specific incentives, as prescribed by the FAR for performance-based
contracts, should have been used to encourage superior performance in areas of particular
importance to the bureau.

As we previously noted, without a cost analysis or cost reasonableness determination, the $2.3
million contract increase was made without formal consideration of its cost and schedule impacts
and without the contracting officer’s authority, notwithstanding the contracting officer’s being
informed. The bureau stated in its response that the cost increases reflected the refinement of the
contractor’s approach to providing the services necessary to meeting the bureau’s requirements.
Although the bureau may view its program requirements as having remained unchanged, the
additional items and efforts, in fact, are considered contractual requirements changes under the
FAR because they increase the cost, time, and performance requirements of the contract.

II.    Slippages in Contract Schedule Caused
       Delays in System Testing, but Program
       Operations Began on Schedule

During our review, we became concerned about significant slippages in schedule, which
eventually resulted in revised testing strategies for the TQA system. Several factors contributed
to these delays, including delays in site selection, additions and changes to requirements, and
underestimation of system complexity.

For example, system integration testing was delayed two months. This testing was to be
performed on the computer and telecommunications hardware and software that make up the
TQA system and included all existing systems that had to be integrated with new hardware and
software to meet program requirements. Original schedules called for testing to begin on
September 17 and end on December 7, 1999. However, testing had to be delayed until
November 29, 1999, and did not end until February 11, 2000, less than one month before the start
of TQA operations. The Live Test Demonstration, a major contract deliverable, was designed to
demonstrate the functionality and interoperability of the entire TQA system and call centers. This
test was scheduled to begin on October 1, 1999, but testing did not actually begin for the inbound
calling system until February 14, 2000, and did not end until February 25, only one week before
the beginning of operations.



                                                 7
U.S. Department of Commerce                                           Final Inspection Report OSE-12376
Office of Inspector General                                                           August 2000

Delays in completing testing of such a complex system could have had a significant impact on
the successful performance of TQA because the short time between test completion and start of
operations left little leeway for correcting problems and retesting the system. Despite the delays,
TQA inbound operations began as planned on March 3, 2000. However, outbound operations
did not begin on time because of delays in developing the operator support system and installing
the TQA network. Also, there were problems with extracting the interview data from the TQA
system during testing. Correcting these problems and performing additional testing delayed the
start of outbound operations until early May. Initially, operations were to begin at call centers on
a staggered basis, with one or two centers beginning at a time. According to bureau officials,
centers began operations concurrently so that the work can be completed without affecting the
decennial census schedule.

                                     ------------------------------

Census Bureau Response

The bureau disagreed with our statement that outbound operations were delayed because of
problems with extracting the interview data, stating that the causes were delays in developing the
operator support system (for outbound calling) and putting the TQA network in place, as well as
the need to ensure that the system was fully tested before conducting the interviews.

OIG Comments

Although delays in developing the operator support system and installing the TQA network
caused testing to be delayed, we found that problems encountered during testing with extracting
the interview data were a major contributor to the delays in beginning outbound operations.


CONCLUSION

Adequate contract administration and surveillance planning is necessary for a smooth transition
from contract award to successful contract performance. A plan can be as simple or as complex
as the individual acquisition requires, but it should define performance outputs and describe how
the government intends to conduct surveillance. It should also describe the responsibilities, roles,
and interactions between the program office, contracting officer, and contractor relating to
contract performance and changes. Given the small staff of the TQA program office and its
inexperience in dealing with large-scale telecommunication systems contracts, preparing and
following such a plan could have saved time and resources in monitoring the major outputs of
the contract and would have prevented making unauthorized contract changes. We believe that a
plan is necessary for the remaining contract period and will help ensure a smooth contract
closeout.


                                                   8
U.S. Department of Commerce                                  Final Inspection Report OSE-12376
Office of Inspector General                                                  August 2000

We commend the TQA Program Office and the contractor for their skill and dedication in
resolving problems within such a tight time frame and enabling the TQA program to begin
operations as scheduled. Because the 2000 Decennial Census is the first time that the TQA
program has been contracted out and because of the significance of the issues identified, we
believe that the bureau would benefit from analyzing and recording the lessons learned in
planning for the next decennial census.


RECOMMENDATIONS

We recommend that the Director, Bureau of the Census, ensure that:

1.     A contract administration and surveillance plan is developed covering the remaining
       months of program operation, including closeout.

2.     A lessons-learned report is completed at the conclusion of TQA operations so that the
       experienced gained in developing and managing the system can benefit contracting in the
       next decennial census, as well as non-decennial contracting.

Attachment

cc:    Robert Shapiro, Under Secretary for Economic Affairs




                                                9
